                                                                         OFFICE OF INVESTIGATIONS

                                                               CLOSEOUT MEMORANDUM




                      The complainant1 alleged that a person he suspected to be an ad hoc reviewer (the subject) for
                      his NSF proposal (proposal 113shared a copy of proposal 1 with an ad hoc reviewer for the
                      complainant's next submitted NSF proposal.4 The complainant explained that the subject's
                      action was a breached the confidentiality of the peer review process. The complainant explained
                      that he learned about this alleged breach of confidentiality from a friend.
                                        1


                      We wrote to the subject asking about the alleged breach of confidentiality. The subject
                      responded that he never shared a copy of any NSF proposal he reviewed with another individual
                      who was not associated with the review process for that specific proposal without permission
                      fi-om the program officer.

                      We found no evidence to support the alleged breach of confidentiality by the subject. This case
                      is closed and no further action will be taken.




I




                                       ', submitted b the com lainant as the sole PI.
                           Y,
                        Pro osal2 is NSF proposal
                         kt,                                      entitled ''
                                          submitted by the complainant as the sole PI.

 1


I


    I        NSF OIG Fonn 2 (1 1/02)

-1
    I'
    I    '
